                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: 110120059                                                                      Page 1 of 1



         We opened this case pursuant to a proactive review of small business concerns receiving
         SBIR/STTR awards from multiple federal agencies. Based on our review of proposals submitted
         by a small business 1, we identified potentially duplicative proposals submitted to NSF and other
         federal agencies 2 . We interviewed an NSF Program Director3 regarding the potential similarities
         between two projects 4 . Based on his/her review of the proposals, the NSF Program Director
         stated he/she would not have funded the NSF proposal had he/she known about the other grant
         because the research objectives were too similar. Other agencies' Program Managers established
         similarities between additional proposals submitted by the small business.

         We referred the matter to the USA0 5 and the matter was accepted for criminal prosecution and
         civil litigation. We executed search warrants and conducted interviews; however, we were
         unable to substantiate the allegation. Based on the information obtained during interviews, we
         met with the NSF Program Director again, who retracted his/her initial statements regarding the
         similarity of the two proposals.

         The USAO declined the matter.

                    Accordingly, this case is closed.




NSF O IG Form 2 (I 1/02)
